     Semiannual Report

      to the Congress


April 1, 2003 - September 30, 2003





 Martin J. Dickman, Inspector General
      Railroad Retirement Board
       T A B L E O F C O N T E N T S 




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3


SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     5


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   12

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            13

Audits: Management Decisions and Implementation . . . . . . . . . . . . . .                                 17


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   18

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           20

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         21

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               23

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . .                     31

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     32


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                       33


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              34

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . .                                    35

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . .                                36

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    37

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . .                           42

                                                      Semiannual Report to the Congress



E X E C U T I V E S U M M A R Y
                              Y


  This semiannual report summarizes the activities and accomplishments of the
  Office of Inspector General (OIG) for the period April 1, 2003 through
  September 30, 2003.

                             Significant Activities

  During this six month reporting period, the Office of Inspector General (OIG)
  focused its efforts on the oversight and review of the Railroad Retirement Board’s
  (RRB) activities related to information systems. OIG personnel performed the
  Fiscal Year 2003 evaluation of information system security, as required by the
  Federal Information Security Management Act of 2002 (FISMA). Review results
  indicate that weaknesses in information system security continue to exist.
  Significant deficiencies in access controls and program management remain.
  Although the agency has continued to address previously identified weaknesses,
  the corrective actions to address them have not been completed. We will continue
  to track identified vulnerabilities and closely monitor agency actions to eliminate all
  weaknesses.

  Two additional audits related to information systems on the development and
  maintenance of end-user computing applications, and the agency’s PIN/Password
  System used to validate users of the RRB’s Internet services were conducted. Our
  monitoring efforts of the RRB’s development and implementation of a new Internet-
  based employer reporting system revealed several problems regarding electronic
  data submission. The system is scheduled for implementation in April 2004.

                              Other Audit Efforts

  Auditors also performed a review of the RRB’s compliance with requirements for
  disclosure of supplementary information for social insurance programs, assessed
  agency actions to improve internal controls over fixed assets, and evaluated the
  sufficiency of existing data to estimate the impact of improper payments on the
  Railroad Retirement Act benefit program.



                                         1
April 1, 2003 - September 30, 2003



                            Investigative Accomplishments

       During the past six months, the Office of Investigations (OI) achieved 36
       convictions, 25 indictments and informations, and $1,119,704 in recoveries,
       restitutions, fines, civil damages, and penalties.

       OI criminal investigators conducted a special review of survivor annuitants over the
       age of 100 in the State of Illinois to determine if the RRB was erroneously paying
       benefits to any survivor annuitants after their date of death. The review identified a
       nursing home that had failed to report an annuitant’s death and had received RRB
       benefits through electronic deposits. OI agents reported this information to agency
       officials, and recovery action was initiated.

       As a result of information developed by OI agents, RRB program officials
       conducted a review of three cases that involved annuitants who returned to work in
       the rail industry but failed to notify the RRB. These annuitants were overpaid
       approximately $300,000 over a period of nine years. A more extensive review
       identified weaknesses in systems and procedures that prevent detection of such
       cases. Programming changes are being developed to address the system
       deficiencies. The agency also identified an additional 751 annuitants with
       creditable service after their annuity beginning date and are examining the cases
       to determine any impact on benefit payments.




     All reports are available on our website: http://www.rrb.gov/oig/Rrboig.htm




                                             2
                                                       Semiannual Report to the Congress



I N T R O D U C T I O N 



   25th Anniversary of the Inspector General Act of 1978

   On October 14, 2003, President George W. Bush hosted a reception to celebrate
   the 25th anniversary of the Inspector General Act of 1978, legislation that created
   twelve Inspectors General (IGs) to improve the efficiency and effectiveness of
   Federal operations and identify fraud, waste and abuse in Federal programs. At
   present, there are 29 presidentially appointed, Senate confirmed IGs, and 28
   statutory IGs who are appointed by their agency heads in certain designated
   Federal entities. The 57 IGs provide independent audit and investigative oversight
   of Federal agencies.

   During the past 25 years, the IG community has served as an effective agent for
   improvement in Federal programs, and has strengthened accountability throughout
   government operations. Today, IGs are also responsible for directing critical
   annual reviews of financial statements of their respective agencies, assessments
   of agency performance and budget activities, and evaluations of information
   system security.

   OIG audit and investigative efforts have identified significant potential savings in
   program operations and recoveries from violations of Federal criminal laws. In
   Fiscal Year 2002, the IG community identified nearly $72 billion in potential
   savings from agency action on current and prior recommendations and through
   investigative recoveries, issued over 4,600 reports, recorded almost 11,000 in
   successful prosecutions, and processed over 234,000 complaints.

   The IG community plans to build upon its past successes and remains committed
   to promoting improvements in government performance and accountability. OIGs
   will continue to play a pivotal role in ensuring economy, efficiency and
   effectiveness within the Federal government.




                                          3
April 1, 2003 - September 30, 2003



       Railroad Retirement Board - Office of Inspector General

       The Railroad Retirement Solvency Act of 1983 established the Office of Inspector
       General at the Railroad Retirement Board by naming the agency as “one of such
       establishments” identified under Section 2 of the Inspector General Act of 1978.
       The Inspector General Act Amendments of 1988 added the RRB to the list of
       agencies covered by the Inspector General Act.

       In fiscal year 2003, the OIG had 53 employees assigned to three operational
       components: the immediate office of the Inspector General, the Office of Audit, and
       the Office of Investigations. The office conducts operations from two locations: the
       headquarters of the Railroad Retirement Board in Chicago, Illinois, and an
       investigative field office in Philadelphia, Pennsylvania.


       Railroad Retirement Board

       The Railroad Retirement Board (RRB) is an independent agency in the executive
       branch of the Federal government that is headed by a three member Board
       appointed by the President of the United States, with the advice and consent of the
       Senate. One member is appointed upon the recommendation of railroad
       employers, one is appointed upon the recommendation of railroad labor
       organizations, and the third, who is the Chairman, is appointed to represent the
       public interest.

       The agency administers comprehensive retirement-survivor and unemployment-
       sickness insurance benefit programs for the nation's railroad workers and their
       families, under the Railroad Retirement and Railroad Unemployment Insurance
       Acts. The RRB also has administrative responsibilities under the Social Security
       Act for certain benefit payments and Medicare coverage for railroad workers.

       During fiscal year (FY) 2002, the RRB paid $8.6 billion in retirement and survivor
       benefits to approximately 684,000 beneficiaries, while net unemployment and
       sickness insurance benefits of $99 million were paid to almost 39,000 claimants.
       The RRB also administers its own Medicare Part B program through a single
       carrier, Palmetto GBA. The carrier made payments totaling $788 million to provide
       medical insurance benefits for 571,000 beneficiaries.



                                            4
                                                          Semiannual Report to the Congress



S I G N I F I C A N T
A C T I V I T I E S
...

      During this semiannual reporting period, the Office of Inspector General continued
      to place a high priority on the oversight of RRB activities related to information
      systems. OIG efforts included performance of the following reviews:

      O conducting the Fiscal Year 2003 evaluation of information system security,

      O monitoring of the agency’s development and implementation of a new
        Internet-based employer reporting system,

      O evaluating agency methodology for end-user computing applications, and

      O	 auditing the current system for authentication of individuals using the
         agency’s Internet services.


                  FISCAL YEAR 2003 EVALUATION
                    OF INFORMATION SECURITY

      The OIG performed its annual security evaluation of the RRB’s information system
      security program and practices during FY 2003. The provisions of the Federal
      Information Security Management Act of 2002 require annual agency program
      reviews, Inspector General security evaluations, annual agency reports to the
      Office of Management and Budget (OMB), and annual OMB reports to Congress.
      The RRB and OIG forwarded their reports to OMB on September 22, 2003.

      Reviews performed by information system security specialists under contract to the
      OIG in FY 2000 and FY 2001 disclosed the need for improvements in security
      controls in data processing and end-user computing support systems. OIG
      security evaluations in FY 2001 and FY 2002 identified weaknesses throughout the
      agency’s information security program. In those reviews, auditors cited material
      weaknesses as a result of significant deficiencies in access controls in mainframe


                                             5
April 1, 2003 - September 30, 2003



       and end-user computing environments and training provided to staff with security
       responsibilities.

       In FY 2003, our oversight activities of the RRB’s information security program
       included an assessment of the security procedures over the Internet DC-1 filing
       process (employer contributions under the Railroad Unemployment and Insurance
       Act), an evaluation of the agency’s self-assessment process for information system
       security, and a review of the security in systems development life cycle for end-
       user computing. Auditors identified weaknesses in the administration of security
       features in the Internet-based system, inadequate use of the National Institute of
       Standards and Technology self-assessment guide, and the lack of a
       comprehensive certification and accreditation process.

       Although RRB management continues to strengthen and improve the agency’s
       information security, significant deficiencies in access controls and program
       management, the basis for the OIG’s finding of material weakness, continue to
       exist. Corrective actions to address these previously reported weaknesses have
       not been completed.

       We have continued to monitor agency efforts to complete corrective actions for all
       the recommendations contained in the above mentioned reports. The agency’s
       Bureau of Information Services (BIS) has implemented or plans to implement the
       majority of the 119 recommendations issued to date. As of March 31, 2003, 61
       items had been implemented and ten had been rejected.

       Auditors reported that the RRB’s plan of action with milestones does not provide
       adequate details on the weaknesses in the agency’s information security program
       and planned corrective actions, as required by OMB. Although agency procedure
       requires program officials to furnish action plans to address control weaknesses
       identified during any program review, such plans are not consistently prepared and
       submitted to the Chief Security Officer for inclusion in the RRB’s plan of action and
       milestones. Auditors recommended that BIS review and revise the agency’s plan
       of action, and remind program officials to identify vulnerabilities and develop action
       plans. The agency declined to revise the plan of action, but agreed to issue a
       reminder to program officials concerning their responsibility to report any identified
       information security vulnerability and provide a corresponding plan of action for
       remediation.



                                             6
                                                     Semiannual Report to the Congress



  The OIG evaluation did point out that the agency’s chief security officer does
  maintain detailed records on the status of known vulnerabilities, and tracks related
  activities on a quarterly basis. The OIG also monitors the status of all pending
  corrective actions for information technology security weaknesses and provides
  status reports to responsible agency managers on a semiannual basis.

  Auditors also identified security weaknesses in the access controls for the
  automated system that provides requests for earnings and computation records
  used in the payment of survivor benefits. As a result, the Chief Information Officer
  will request system owners to review the access granted to users, and will
  implement system changes to ensure access is based on an individual’s specific
  job duties.


EMPLOYER REPORTING SYSTEM INTERNET PROJECT

  The OIG continued its monitoring of the RRB’s development and implementation of
  a new Internet-based employer reporting system (ERS). In February 2003, the
  agency used a small number of rail employers to test the filing of electronic copies
  of three reporting forms. However, the RRB had not received the approval of the
  Office of Management and Budget (OMB) for the use of the electronic forms. In
  addition, these employers did not complete an approved registration form to obtain
  access to the system since the form was not finalized and submitted to OMB until
  after the test period.

  Auditors also determined that ERS did not track and record user identification
  information through the system for purposes of accountability and legal
  enforcement. The OIG alerted program managers that they were using an
  unapproved form as an agency record, and were processing data as though the
  system had been approved and was fully operational. Employers who participated
  in the test pilot continued to use the system to submit data electronically. Program
  managers decided to contact these employers to obtain paper certifications. We
  did not believe such action would correct the problem since OMB did not approve
  the electronic forms, and the submission of certification months after electronic
  data submission would not bind the certifying individual to the prior electronic
  submission.




                                        7
April 1, 2003 - September 30, 2003



       In an April 2003 meeting, senior RRB officials assured OIG management that use
       of the ERS would not begin until appropriate OMB approval was obtained and
       sufficient audit trails developed. However, auditors determined that the RRB
       continued to allow a limited number of employers to use the ERS to file electronic
       forms. In June, we recommended that the agency discontinue use of the ERS
       until full OMB approval was obtained and sufficient audit trails were developed.
       We also recommended that ERS users complete an approved registration form
       and use an OMB-approved form or electronic process to submit information
       previously reported through ERS.

       As a result, the agency ended its testing and agreed to make the system available
       only after OMB approval on those forms requiring clearance was obtained, and
       system improvements to generate audit trails were implemented. Completion is
       targeted for April 2004. The agency has decided to accept the records previously
       posted electronically and obtain new applications for employer internet access
       when the system becomes operational. In addition, OMB has now approved the
       appropriate forms.


 REVIEW OF THE SYSTEMS DEVELOPMENT LIFE CYCLE
            FOR END-USER COMPUTING

       The RRB’s end-user computing system supports the agency’s local and wide area
       networks, with access to all software applications through connections with
       personal computers on the networks. The purpose of this review was to assess
       the agency’s methodology for the development and maintenance of end-user
       computing applications, and the RRB’s efforts in incorporating security
       requirements into the system development life cycle. Auditors selected a non-
       random sample of 17 from 72 end-user computing development projects that were
       initiated or completed during fiscal years 2002 and 2003.

       Auditors concluded that both the agency’s methodology and efforts to incorporate
       security into the systems development life cycle were inadequate. They
       determined that the agency has an ineffective project management program, a
       limited quality assurance program, and cannot ensure all systems will be properly
       authorized prior to implementation.




                                            8
                                                   Semiannual Report to the Congress



During this review, the RRB’s Bureau of Information Services was unable to
provide documentation for critical activities. Nine projects were not supported by a
general work plan detailing required tasks and staff resources, twelve projects
lacked cost estimates, and reliable estimates of staff time expended to date were
unavailable for two projects. As a result of their findings, auditors recommended
the implementation of a new project management system, a project tracking
system, and a comprehensive quality assurance program. Management agreed
and has initiated appropriate corrective action.

Auditors also determined that management has not integrated security into the
systems development life cycle. New systems exhibit a lack of applied audit trails,
weak authentication methods and poor access controls. The RRB also lacks a
certification and accreditation program that places responsibility for the acceptance
of system security risk with higher levels of management. Management has
agreed to revise procedures and designate an information system security officer
for each major application and general support system.

Weaknesses were also identified in the internal controls for ensuring all systems
are tested, accepted and properly authorized prior to implementation. Without
adequate controls, unauthorized systems or systems that do not meet the user’s
needs may become operational. Auditors recommended the implementation of
controls to address the identified weaknesses, and to ensure that the installation
process for application software is properly documented and executed only by
authorized individuals. Management concurred with the findings and has agreed
to provide additional training to user analysts.




                                      9
April 1, 2003 - September 30, 2003



  REVIEW OF THE RAILROAD RETIREMENT BOARD’S
PERSONAL IDENTIFICATION NUMBER (PIN)/PASSWORD
       SYSTEM FOR ON-LINE AUTHENTICATION

       In November 2002, the RRB implemented the PIN/Password system to validate
       users of the agency=s Internet services. The RRB selected the system to protect
       the integrity and confidentiality of its electronic records and transactions. It serves
       as the gateway for agency Internet services and currently allows railroad
       employees and annuitants to view their railroad service and compensation records
       on-line. In the near future, the system will permit employees to obtain annuity
       estimates, and file unemployment applications and sickness claims on-line. An
       additional system component to allow individuals to apply for retirement annuities
       via the Internet is in the early stage of development.

       Auditors reviewed the RRB=s decision process in choosing this system as the
       authentication method for its Internet services. They found no evidence that
       agency personnel had adequately performed the Federally recommended risk
       analysis to support the decision to use this particular system or performed the
       recommended cost benefit analysis.

       The Office of Management and Budget, the Department of Justice, and the
       National Institute of Standards and Technology all have provided separate
       guidance on the use and acceptance of electronic documents as well as the need
       to perform a risk analysis of any authentication method under consideration. The
       only documentation prepared by the RRB was a limited analysis of proposed
       Internet services. The agency failed to document its determination of the
       appropriate security levels, the inherent risks for proposed services, an
       assessment of strengths and weaknesses of the PIN/Password system or other
       alternatives, reasons for reducing the level of security for on-line unemployment
       and sickness applications and claims, or details to support its reconsideration for
       use of the highest level of security for benefit applications

       The responsible RRB managers believed a cost and risk analysis was
       unnecessary because they believed they were following similar efforts of other
       Federal agencies. However, auditors could not identify any agencies that were
       using the PIN/Password system as an electronic signature for benefit applications.


                                             10
                                                   Semiannual Report to the Congress



Because the RRB did not adequately follow guidance before implementing the
current system, it is the opinion of the auditors that the agency may not have
chosen the most cost-effective, risk appropriate authentication method. Without a
risk assessment, the agency has not fully demonstrated that the PIN/Password
system provides a sufficient level of authentication to meet the agency=s litigation
and administrative needs.

Auditors recommended that management perform and document a risk and cost
benefit analysis for each of its Internet services to determine if the PIN/Password
system is the most appropriate authentication method. They also recommended
that the analysis be completed prior to the implementation of the on-line
unemployment, sickness and retirement applications. In addition, auditors
recommended that the agency establish procedures that comply with Federal
guidance on the selection and implementation of authentication methods for on-
line services. Agency management agreed with all recommended actions.




                                     11
April 1, 2003 - September 30, 2003




O F F I C E                          O F       A U D I TT



       The Office of Audit (OA) conducts audits and reviews to promote economy,
       efficiency, and effectiveness in the administration of RRB programs, and to detect
       and prevent waste, fraud, and abuse in such programs. Through the Inspector
       General, the office ensures that the Board Members and Congress are informed of
       current and potential problems in the RRB’s programs and operations, and advised
       of recommended improvements, as well as the status of corrective actions. OA
       examines programmatic, financial, and administrative aspects of RRB operations.

       In addition to oversight and monitoring efforts of agency information technology
       systems and information system security described in the Significant Issues
       section of this report, OA performed three additional reviews. Auditors reviewed
       the RRB’s compliance with requirements for disclosure of supplementary
       information for social insurance programs, assessed agency actions to improve
       internal controls over fixed assets, and evaluated the sufficiency of existing data to
       estimate the impact of improper payments on the Railroad Retirement Act benefit
       program.

       Summaries of these reviews follow.




                                             12
                                                       Semiannual Report to the Congress



COMPLIANCE WITH STATEMENTS ON FEDERAL FINANCIAL ACCOUNTING
STANDARDS (SFFAS) #17: “ACCOUNTING FOR SOCIAL INSURANCE”

    SFFAS #17 presents accounting standards for Federal social insurance programs,
    including the benefit programs established under the Railroad Retirement Act.
    Under these standards, the RRB’s financial statements must include
    supplementary information concerning the long-term sustainability of the railroad
    retirement program, including actuarial projections. At this agency, the Chief
    Actuary prepares the social insurance disclosures required under the SFFAS #17,
    and provides them to the Bureau of Fiscal Operations for inclusion in the agency’s
    financial statements.

    Prior OIG audits of the RRB’s financial statements identified areas of non-
    compliance in form and content of social insurance disclosures since the agency
    was first required to publish them with its FY 2000 financial statements. In this
    review, auditors determined that the agency’s FY 2002 social insurance
    disclosures for the railroad retirement program also did not fully comply with the
    requirements of SFFAS #17.

    Based on their review of the document in draft, auditors advised the Bureau of the
    Actuary of their findings and recommended revisions be made to the document.
    However, the Bureau of the Actuary incorporated only those changes they
    considered appropriate prior to final publication.

    Auditors advised management that proposed changes to the standard would make
    some of the currently required supplementary disclosures essential for fair
    presentation in conformance with generally accepted accounting principles. Under
    the proposed reclassification, any deficiencies in form and/or content could result
    in an adverse or qualified opinion on the financial statements. Auditors also noted
    that the limited procedures that they applied to supplementary information may not
    have disclosed all non-conformances that the agency will have to address to
    ensure future conformance under the proposed revisions. They recommended
    that the Bureau of Fiscal Operations begin planning immediately to ensure that the
    agency can comply with the proposed revised reporting standard.




                                         13
April 1, 2003 - September 30, 2003



       The Chief Financial Officer agreed to work with the Bureau of the Actuary to
       comply with any new information from Federal Accounting Standards Advisory
       Board (FASAB).

       In July 2003, FASAB issued SFFAS #25 that requires that selected social
       insurance data, previously classified as a supplementary disclosure under SFFAS
       #17, be presented as a basic financial statement beginning with FY 2005 financial
       reporting. This reclassification will subject data presented to more rigorous audit
       procedures.


INSPECTION REPORT - ACTIONS TAKEN TO IMPROVE INTERNAL
CONTROL OVER FIXED ASSETS

       In October 2000, OIG auditors conducted a review of the agency=s internal control
       over fixed assets and determined that existing controls did not ensure the accuracy
       and usefulness of the agency=s accountable property record. They recommended
       that the Bureau of Supply and Service (BSS) implement a new, comprehensive
       system of fixed asset accounting and internal control to distribute responsibility for
       record maintenance throughout the agency.

       Auditors performed this inspection to assess the various actions that the agency
       had taken to address earlier OIG findings.

       In May 2002, BSS introduced the WiseTrack system, a new dedicated computer
       application, designed to control and manage fixed assets. By September 2002,
       the new system had replaced the old fixed assets database, and BSS personnel
       continued to perfect the data in WiseTrack. They also initiated training of
       responsible staff in other offices, and received approval for revisions to the
       applicable agency administrative circular that defined revised policies and
       procedures.

       During this inspection, auditors determined that BSS had implemented a new
       system of fixed asset management that addresses the issues raised in the prior
       review. However, auditors’ testing of the data maintained on WiseTrack indicated
       that additional actions were required to ensure the accuracy of the accountable
       property record. Auditors recommended that BSS complete the process of
       reviewing and revising the historical data that initially loaded into the new system.


                                             14
                                                       Semiannual Report to the Congress



     Management concurred with the finding and reported that they anticipate a 95%
     accuracy level when the data update and revision have been completed. They
     plan to complete the data update and revision by the close of this calendar year.

EVALUATION OF THE SUFFICIENCY OF EXISTING DATA TO ESTIMATE THE
IMPACT OF IMPROPER PAYMENTS ON THE RAILROAD RETIREMENT ACT
BENEFIT PROGRAM

     The Improper Payments Information Act of 2002 requires agency heads to
     annually review all programs and identify those that may be susceptible to
     significant improper payments. The legislation also requires the Office of
     Management and Budget (OMB) to issue guidance to Federal agencies for
     implementing the Act. In May 2003, OMB defined “significant improper payments”
     as annual erroneous payments exceeding both 2.5% of program payments and
     $10 million. For programs susceptible to significant improper payments, the
     guidance instructed agencies to use statistical sampling to estimate annual
     improper payment experience based on the gross total of overpayments and
     underpayments.

     OIG auditors performed this review to determine if the data available in the RRB’s
     benefit payment and accounting systems is sufficient to support the annual review
     cited above. They were able to develop a general estimate that would permit an
     evaluation under OMB’s criteria. Limitations on the data available restricted their
     ability to develop a more precise estimate of any monetary impact. Auditors
     recommended that the agency pursue system enhancements or alternative
     sources of data that would provide more precise data to support the annual
     determination. Management has initiated the development of a new methodology
     for future determinations.

     The review indicated that the agency’s experience with improper payments did not
     exceed the OMB threshold of 2.5% of program payments. Auditors estimated
     actual improper payments in the RRA program did not exceed $127 million in FY
     2002; the RRB’s threshold was $217 million, 2.5 % of approximately $8.7 billion in
     benefits paid under the provisions of the RRA. The RRB, therefore, is not required
     to perform statistical sampling to measure and monitor improper payments in the
     RRA program.



                                          15
April 1, 2003 - September 30, 2003



       Auditors also reported several findings concerning the overpayment experience in
       the RRA program when accounts receivables are established due to the death of
       an annuitant or concurrent entitlement to Social Security benefits. Payments
       released after the death of an annuitant are the largest single cause of
       overpayments recognized by the agency each year. Auditors projected that, in FY
       2002, approximately $16 million (or 50%) of such overpayments were associated
       with notices on death received after the cut-off date for monthly payment
       processing. The RRB is currently working with the Department of the Treasury to
       implement a payment intercept process that would permit the agency to intercept
       payments between the release of instructions to pay and the actual issue of
       payment by check or electronic fund transfer.

       An assessment of overpayments that resulted from concurrent entitlement to
       Social Security benefits indicated that certain routine adjustments are recognized
       as debt, some overpayments may be avoidable and the automated payment
       transactions history does not always report complete information. Auditors
       recommended that program managers review current procedures and controls to
       reduce this type of overpayment and ensure the payment history records accurate
       data. Management concurred and plans to complete reviews by the close of the
       year.




                                           16
                                                 Semiannual Report to the Congress



     AUDITS: MANAGEMENT DECISIONS AND
              IMPLEMENTATION


The Office of Inspector General maintains the open audit follow-up system to track
the status of corrective actions for all audit recommendations. Office of
Management and Budget Circular No. A-50 (Revised) and the Inspector General
Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.



Management Decisions for Recommendations

Requiring a management decision on April 1, 2003                                 4

Pending management decisions for new recommendations                             0

Management decisions for previous recommendations                                4

Recommendations pending a management decision
  on September 30, 2003                                                          0

Corrective Actions

Recommendations requiring action on April 1, 2003                               89

Recommendations issued during this period                                       22

Corrective actions completed during the period                                  15

Final actions pending on September 30, 2003                                     96




                                    17
April 1, 2003 - September 30, 2003



O F F I C E O F
I N V E S T I G A T I O N S


       The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
       primary objective is to identify and investigate cases of waste, fraud and abuse in
       RRB programs and refer them for prosecution and monetary recovery action.
       Through its investigations, OI also seeks to prevent and/or deter program fraud. In
       order to maximize the effect of its resources, OI continues to pursue cooperative
       investigative activities and coordination with other Inspectors General and law
       enforcement agencies, which include the Social Security Administration-Office of
       Inspector General, the Office of Personnel Management-Office of Inspector
       General, the Federal Bureau of Investigation (FBI), the U.S. Secret Service, the
       Internal Revenue Service, and the Postal Inspection Service.


       Fraud Detection - Illinois Survivor Annuitants Over
       the Age of 100

       During this reporting period, OI special agents conducted a review of survivor
       annuitants over the age of 100 in the State of Illinois. The purpose was to
       determine if the RRB was erroneously paying benefits to any survivor annuitants
       after their date of death. Utilizing a database that the OIG recently developed to
       assist special agents in analyzing annuitant data, OI identified 67 survivor benefit
       annuitants over the age of 100 who were in pay status in the month of July 2003 in
       Illinois. For sixty annuitants, agents either personally contacted them or
       determined they had submitted Medicare claims within the previous three months.

       OI determined that the remaining seven annuitants had recently died. The RRB
       had received information related to six deaths, had terminated their benefits and
       established debts for any benefits issued after the date of death. None of the
       annuity overpayments exceeded $1,000. For the remaining annuitant, special
       agents identified a nursing home that did not report the annuitant’s death on




                                            18
                                                    Semiannual Report to the Congress



June 9, 2003, and received $2,400 in RRB benefits in electronic deposits. OI
reported this information to an RRB program official, and recovery action was
initiated with the nursing home.


Agency Actions in Response to Systemic Implication Report

In the Semiannual Report to Congress for the period ending September 30, 2002,
OI reported on a potential agency systemic issue concerning annuitants who return
to work in the railroad industry but fail to notify the RRB. Regulations do not permit
annuitants to receive an annuity for any month in which they return to service for a
railroad employer. Although the RRB does use computer matches to identify
violators, OI identified three annuitants who were not detected and were overpaid
approximately $300,000 over nine years. OI expressed concern that there may be
weaknesses in agency systems that prevent the timely detection of individuals who
continue to receive their annuities after they return to railroad service.

As a result of the information developed by OI, program officials conducted a
review of the three cases and concluded that an extensive review of the situation
should be performed. The more thorough review identified weaknesses in both
systems and procedures that prevent detection of such cases. The study also
revealed an additional 751 annuitants with creditable service after their annuity
beginning date that the agency is currently reviewing to determine any impact on
benefit payments.

Program officials and representatives from the agency’s Bureau of Information
Services are collaborating on necessary programming changes to correct the
current situation and prevent future cases of this type from remaining undetected.




                                     19
April 1, 2003 - September 30, 2003




                                              04/01/03-
 INVESTIGATIVE ACCOMPLISHMENTS                09/30/03             FY 2003

 Convictions                                              36                 55

 Civil Judgements                                          2                 23

 Indictments/Informations                                 25                 50

 Investigative Recoveries                     $   533,368      $ 1,253,025

 Restitutions and Fines                       $   563,580      $     901,376

 Civil Damages and Penalties                  $    22,756      $     366,175

 Potential Economic Loss Prevented (PELP)     $   265,400      $     265,400

 Community Service Hours                              240                540

 Disciplinary/Administrative Action                        0                  0

 Civil Complaints                                          3                 10
 Criminal Complaints                                       0                  3

 Arrests                                                   1                  2

 Subpoena Service:
  Inspector General                                       13              17
  Federal Grand Jury                                      77             134
  Trial                                                    0               0

 Program Fraud Civil Remedies Act Referrals                0                  0

 U.S. Attorney Referrals                              117                239




                                        20

                                                             Semiannual Report to the Congress



INVESTIGATIVE CASES

      During this semiannual period, OI opened 138 investigations and closed 118
      cases. The major sources of case referrals are illustrated below.
                                           Computer Matches - 6%
         RRB Field Offices - 16%

                                                            OIG Developed - 13%




                                                               Hotline - 14%




RRB Headquarters - 44%

                                                        Others - 7%




      OI's current caseload totals 535 criminal matters, representing approximately
      $19.6 million in fraud against the RRB.

                                                         Disability -199 cases
  Unemployment - 124 cases                                   $3,100,000
        $576,000




                                                               Sickness - 17 cases
    Retirement - 110 cases                                          $71,000
         $1,399,000
                                                        Spouse/Dependent - 32 cases
                                                             $774,000
                                                  Representative Payee - 26 cases
                                     Other - 27 cases   $189,000
                                      $13,500,000




                                           21
April 1, 2003 - September 30, 2003



DISTRIBUTION OF CASES
       The Office of Investigations (OI) conducts its investigations throughout the United
       States in response to complaints or allegations regarding violations of Federal law.


       The map below indicates the number of open investigations that OI currently has in
       each state; there are no open cases in Alaska or Hawaii. Two additional
       investigations are underway in Canada.




                                            22
                                                      Semiannual Report to the Congress



REPRESENTATIVE INVESTIGATIONS


               Retirement Benefit Investigations

    RRB retirement fraud typically involves the theft and fraudulent cashing of U.S.
    Treasury checks, or the illicit conversion of U.S. Treasury electronic fund
    transfers, by someone other than the authorized RRB annuitant. During this
    reporting period, OI obtained ten convictions for retirement fraud. Defendants
    received 34 years, six months probation; 10 years, two months suspended
    sentences; 14 years, two months imprisonment; four months house arrest; and
    were ordered to pay $150,965 in restitution and $1,170 in fines. The RRB will
    recover an additional $269,944 in overpayments as a result of OIG investigations
    of retirement benefit programs.

   OI routinely receives referrals from the RRB’s Debt Recovery Division that involve
   the fraudulent negotiation of RRB retirement benefit checks, usually by a relative of
   a deceased annuitant.

   Examples of recent retirement cases follow.



   '	 One referral indicated that a woman may have fraudulently taken RRB benefit
      checks after the death of her grandmother. When interviewed, the subject
      claimed that a contractor working in the house had stolen her grandmother’s
      checkbook, and that she had reported the incident to the local police.
      However, a check of the police records showed no police report had been
      filed.

       A review of the annuitant’s bank records by special agents revealed that the
       subject had continued to write checks on her grandmother’s account after the
       woman’s death on June 3, 2000. In fact, she withdrew the retirement benefits
       by writing 112 checks for 14 months following the death. She dated each
       check prior to the death even though they were actually written as late as
       August 2001. From July 1, 2000 through August 25, 2001, she withdrew



                                        23
April 1, 2003 - September 30, 2003



            $9,018 in RRB retirement benefits from the account. When interviewed again,
            she admitted to writing and pre-dating the checks.

            In April 2003, an information was filed in the U.S. District Court for the
            Western District of Missouri, charging the subject with violation of 18 U.S.C.
            §641, Theft of Government Funds. She signed a Plea Agreement and
            pleaded guilty to violation of 18 U.S.C. §641. On June 12, 2003, she was
            sentenced to three years probation and ordered to make restitution of $9,018.

       '	 Another referral involved the fraudulent cashing of RRB benefit checks by
          an annuitant’s son who was an RRB appointed representative payee for
          his mother. Special agents determined that the son had cashed 12 U.S.
          Treasury checks totaling $13,428 following his mother’s death. When
          interviewed, he admitted to cashing the checks, and stated he used the
          funds for his expenses. He was indicted on one count of 18 U.S.C. §641,
          Theft of Public Money, and subsequently pleaded guilty. He was
          sentenced to five years probation and ordered to pay restitution of
          $13,428.

       '	 Special agents initiated another investigation based on a referral that
          indicated that an annuitant had died in August 2000, but for whom the RRB
          had issued ten annuity payments totaling $12,542 after that date. A review of
          the checks revealed they were fraudulently negotiated by the annuitant’s son.
          The son forged his father’s signature on the checks and cashed them at
          several local businesses.

            The RRB ordered a reclamation and recovered all funds. A judgement in a
            criminal case was entered by the Commonwealth of Virginia, Circuit Court for
            the City of Lynchburg against the subject for forgery and uttering a forged
            check. He was sentenced to twelve years imprisonment, of which ten years
            and two months were suspended, four years probation and ordered to make
            full restitution to the local businesses.




                                            24
                                                    Semiannual Report to the Congress



Unemployment and Sickness Insurance Investigations

  Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud involves
  individuals claiming and receiving UI or SI benefits while working and receiving
  wages from an employer, in violation of Federal law. OI receives the majority of
  these cases for followup investigation from the RRB’s Disability, Sickness and
  Unemployment Benefits Division as a result of information developed from state
  wage matching programs. These programs match RRB annuitants with individuals
  who earned compensation in each state.

  During this reporting period, OI obtained 19 convictions and two civil judgements
  for UI and SI fraud. Defendants in these cases received, in the aggregate, one
  year imprisonment; 40 years, six months probation; one year suspended sentence;
  and one month house arrest. They were ordered to pay $100,736 in restitution,
  $10,472 in damages, $300 in fines, $12,284 in civil penalties and to perform 240
  hours of community service. The RRB will also be able to recover an additional
  $22,038 as a result of OI investigations.

   Examples of several cases completed this reporting period follow.



  '	 A referral from an agency program division identified a claimant who was
     employed as a tennis instructor in Amagansett, NY while collecting
     unemployment insurance benefits. The subject worked from July 1998
     through January 1999, and failed to inform the RRB of his employment. He
     collected unemployment benefits for 96 days, resulting in the theft of $5,720.

      On April 28, 2003, a settlement agreement was entered against the subject by
      the U.S. Attorney’s office for the Eastern District of New York. He was
      ordered to make restitution totaling $8,500 to the RRB, which included
      benefits, all RRB administrative costs, disqualification penalty fees and
      damages.




                                      25
April 1, 2003 - September 30, 2003



       '	 A state wage match with the State of California identified a package handler
          employed by United Parcel Service who was receiving unemployment benefits
          from the RRB. The subject submitted 23 unemployment claims to the
          agency, and indicated she was not receiving any other wages or pay. As a
          result of her false claims, the RRB erroneously paid the woman a total of
          $8,124 in benefits.

            A Federal criminal information was filed against the subject in the Northern
            District of California for violating Title 18, U.S.C. §641, Theft of Public Money
            or Property. On August 22, 2003, the subject pleaded guilty to the information
            and was placed on probation for three years and ordered to make full
            restitution to the RRB.

       '	 OI initiated another investigation based on a referral from the RRB that
          indicated an unemployment claimant possibly claimed benefits while
          employed in the same calendar quarter. An investigation by OI special agents
          determined that the subject had, in fact, worked as a janitor for the YMCA
          while collecting RRB benefits. His action resulted in an overpayment of
          $4,374.

            An information was filed in Washington County Superior Court in Indiana
            charging the man with theft. He was subsequently sentenced for violations of
            the Indiana Criminal Code 35-43-4-2, Theft (Misdemeanor) to one year in jail
            (suspended), one year probation, and ordered to perform 40 hours of
            community service and pay full restitution to the RRB.

       '	 An Illinois state wage computer match identified an individual who was
          employed in two restaurants while receiving RRB unemployment insurance
          benefits. The subject was employed from May - November 2000, and from
          June 2001 through January 2002. During these time periods, he submitted 22
          false claim forms to the RRB indicating he was unemployed. As a result, the
          RRB erroneously paid $7,530 to the subject. He pleaded guilty in Cook
          County, IL to violation of Chapter 720 ILSC, Section 5, 16-1a21A, Felony
          Theft. He was sentenced to 2½ years probation and ordered to pay full
          restitution to the RRB on or before December 20, 2005 at the rate of $251 per
          month.




                                             26
                                                     Semiannual Report to the Congress



                    Disability Investigations


The OIG also conducts fraud investigations relating to the RRB's disability
program, which typically involves larger financial amounts and more sophisticated
schemes. An individual who receives a disability annuity is restricted to earning
not more than $400 in one month. An earnings cap of $4,999 per year also
applies. Disability annuitants must report all work activity to the RRB.

During this reporting period, OI obtained six criminal convictions for disability fraud.
Defendants in these cases were collectively sentenced to five months
imprisonment; two years, five months house arrest; and 17 years probation. In
addition, they were ordered to pay $291,181 in restitution and $5,000 in fines. The
RRB will recover $231,727 as a result of OI disability-related investigations.



'	 OI received an anonymous complaint that an RRB disability annuitant was
   employed as a real estate agent in California. An investigation by OI and the
   FBI confirmed the complaint information, and determined that the subject had
   formed a corporation through which he received his commissions and wages.
   This business arrangement allowed the annuitant to hide his work and
   earnings from RRB routine policing activities.

    The annuitant also worked as a bookkeeper for the real estate firm and had a
    part ownership in the company. OI agents reviewed business records of the
    firm and the annuitant’s corporation, both indicating significant payments to
    the annuitant. His failure to report his work or earnings on an RRB form
    G-254, Continuing Disability Report, became the basis for the criminal charge
    in this case. When OI agents attempted to interview the subject, he refused to
    speak with agents on the advice of his counsel.

    On May 27, 2003, a criminal information was filed in U.S. District Court,
    Northern District of California, San Francisco, charging the subject with
    making a false statement to the U.S. RRB. He pleaded guilty to one count of
    18 U.S.C. §1001, Making a False Statement to a Government Agency. He
    was sentenced to three years probation, one year home confinement, and
    ordered to pay a fine of $5,000 and make restitution of $77,645 to the RRB.


                                      27
April 1, 2003 - September 30, 2003



            He paid the monies in full at the time of his sentencing. This case is also
            being reviewed for additional action under the False Claims Act by the Civil
            Division of the U.S. Attorney’s Office for the Eastern District of California at
            Sacramento.

       '	 OI received a referral from the RRB’s district office in Denver, CO in which a
          complainant indicated that an individual was employed full-time as a security
          screener for Denver International Airport (DIA) while receiving an RRB
          disability annuity. The subject was initially awarded benefits beginning in July
          1988.

            OI’s investigation determined that the subject began working for DIA
            beginning in October 2001. OI then requested that the annuity be suspended
            because the annuitant continued to have earnings in excess of the RRB’s
            disability limitation. Although his DIA employment ceased in the last quarter of
            2002, the subject was overpaid $16,484.

            On October 24, 2002, a Federal Grand Jury indicted the subject for violation
            of 18 U.S.C. §1001, False Statements, 18 U.S.C. §641, Theft of Government
            Funds and 45 U.S.C. §231 (l), Failure to Furnish Information to the U.S. RRB.
            In May 2003, he was found guilty in the U.S. District Court, District of Colorado
            on the first and third counts, and placed on probation for five years and
            required to pay reduced restitution of $12,268. The remaining funds will be
            collected administratively by the RRB.

       '	 OI initiated an investigation of another disability annuitant in Texas based
          upon a referral from the U.S. Attorney’s Office, Western District of Texas at El
          Paso. The referral indicated that the RRB annuitant was employed full-time
          by a law firm. The FBI detected this information during a Medicare fraud
          investigation.

            The annuitant, a former railroad union official, was working as a “runner” or
            investigator for the law firm. Interviews with the personnel and records at the
            law firm as well as corporate/personal bank accounts showed significant
            payments were made to the subject. He was paid in excess of $3,000 a
            month, a percentage of each suit the law firm filed based on his referral of a
            client. Reimbursements were also made to him for telephone, car and travel
            expenses. The law firm had masked these payments by using the name and

                                              28
                                                    Semiannual Report to the Congress



    social security number of the annuitant’s wife. This action was taken to avoid
    the RRB’s detection of the annuitant’s employment and earnings through the
    RRB’s program policing mechanisms.

    OI agents determined that the annuitant has been overpaid $71,823 in RRB
    disability benefits during the period 1997 through 2000. His failure to report
    his employment and earnings as required resulted in a false statement to the
    government. Special agents attempted to interview the subject, but he
    refused to speak with them based on the advice of his counsel. In July 2002,
    he pleaded guilty to one count of 18 U.S.C. §1001, Making a False Statement
    to a Government Agency. On May 27, 2003, he was sentenced to five months
    in prison, five months home confinement, three years probation, and ordered
    to pay full restitution. The U.S. Attorney declined prosecution of the attorney
    involved in the scheme since he is currently serving a Federal prison term
    based upon a separate conviction for Medicare fraud.

'	 The RRB’s Debt Recovery Division referred a case that indicated that a
   disability annuitant was employed by Amtrak while receiving RRB disability
   benefits. This referral resulted from policing efforts of the RRB’s District Office
   in Covina, CA. RRB representatives repeatedly attempted to contact the
   subject to complete a Continuing Disability Report, and discovered that he
   was employed by Amtrak.

    The subject originally worked as a porter at Union Station in Los Angeles, but
    returned to work as an Amtrak reservation agent in the Riverside reservation
    center. He was overpaid a total of $94,885. Special agents from OI and
    Amtrak’s Office of Inspector General interviewed the subject. He admitted to
    defrauding the RRB, stating he was using the money to pay lawyer fees for his
    son who was being prosecuted for murder. Following the interview, the
    subject was terminated from Amtrak.

    On May 7, 2003, he pleaded guilty to one count of U.S.C. §641, Theft of
    Public Money, and was sentenced to three years probation, six months home
    confinement, and ordered to make full restitution to the RRB.




                                     29
April 1, 2003 - September 30, 2003



       '	 OI received another anonymous telephone call alleging that an RRB disability
          annuitant was working as a police officer in one Georgia town, and running for
          an elected office of sheriff. The RRB’s District Office staff in Jacksonville, FL
          requested that the annuitant complete a Continuing Disability Report. The
          annuitant completed the form and indicated he was working for the police
          department and earning exactly $400 a month.

            OI special agents determined that the subject had earnings that exceeded the
            monthly and annual earnings limitation amounts during calendar years 1999
            and 2000. His earnings totaled approximately $2,000, $10,000, $7,500 and
            $1,400 for calendar years 1998, 1999, 2000, and 2001, respectively. The
            investigation revealed that the subject had worked as a police chief in one
            town, a police officer in another town, and a truck driver from August 1998
            through March 2001. The RRB calculated that he had fraudulently received
            $26,324 in disability benefits. When interviewed, the subject denied any
            employment other than his position as a police officer.

            The subject was charged in a six count indictment by a Federal Grand Jury in
            the District of Georgia for violation of Title 18, U.S.C. §1001, False
            Statements, and Title 45 U.S.C. §231l, Failure to make a report or furnish
            information required by the U.S. RRB. He pleaded guilty to four counts of Title
            45 U.S.C. §231l. He was ordered to pay full restitution of $26,324 to the RRB
            and a $100 special assessment to the U.S. Department of Justice.




                                            30
                                                      Semiannual Report to the Congress



AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

  OI continues to pursue prosecution of cases under the Department of Justice's
  Affirmative Civil Enforcement Program. This program involves "fast track" civil
  prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
  3729-3733, The Civil False Claims Act. This statute allows the government to
  recover up to triple damages as well as $5,000 to $10,000 for each false claim
  submitted.

  The Department of Justice is frequently obtaining double damages through these
  civil false claims prosecutions. The judgements obtained in these cases also
  provide the agency with an efficient and effective basis to pursue their collection
  activities.

  The ACE Program continues to provide an efficient means to address fraud
  against agency programs, particularly where the fraud losses are below the
  financial guidelines for criminal prosecution. It also is an effective way to return
  fraud losses to the RRB's trust funds and create a deterrent against future fraud.

  During this reporting period, two civil judgements under the ACE program were
  entered by Federal district courts which will result in the return of $22,756 to the
  government when the funds are collected.




                                        31
April 1, 2003 - September 30, 2003



                                     HOTLINE CALLS


       The Office of Inspector General established its Hotline to receive complaints
       concerning suspected fraud, waste and abuse in RRB programs and operations.
       The Hotline provides an open line of communication for individuals to report
       suspected criminal activity, conflict of interest, mismanagement, and waste of RRB
       funds.



                                                                04/01/03-
                                                                09/30/03       FY 2003

       Total Contacts: (Telephone Calls and Letters)                  681          1263


       Referred to: RRB-OIG, Office of Investigations                  43            68


       RRB Bureaus/Offices                                            340           632


       Other Federal Agencies                                          11            27


       RRB Medicare Carrier/Durable Medical Equipment
       Regional Carriers                                                6            13


       Other (misdirected calls, follow up calls to agents,
       etc.)                                                          225           402
       Calls for which there was insufficient information to
       substantiate an allegation or to make a referral                56           121




                                             32
                                                       Semiannual Report to the Congress




L E G I S L A T I                   V     E &
R E G U L A T O                     R     Y R E V I E W

   The Inspector General Act requires the Inspector General to review existing and
   proposed legislation and regulations relating to the programs and operations of the
   agency, and to make recommendations in the semiannual report concerning the
   impact on the economy and efficiency of the agency’s administration of its
   programs and on the prevention of fraud and abuse.

   During this reporting period, the agency issued a regulation concerning the
   account benefits ratio calculation. The Railroad Retirement and Survivors’
   Improvement Act of 2001 (RRSIA) requires the agency to calculate the account
   benefits ratio which will be used to determine the tier II tax rate for calendar years
   after 2003. The agency issued regulations explaining how it will compute the
   account benefits ratio and has interpreted terms used in the computation. The
   purpose of computing the account benefits ratio is to ensure that there are
   adequate funds to pay benefits due under the Railroad Retirement Act. The
   agency’s regulations were issued to ensure compliance with the RRSIA. The OIG
   may review compliance with the RRSIA as part of its ongoing monitoring efforts.




                                         33
April 1, 2003 - September 30, 2003



A P P E N D I X A
                A


                                REPORTS ISSUED


       P	   Management Information Report - Compliance with SFFAS #17: “Accounting
            for Social Insurance,” May 22, 2003

       P	   Inspection Report - Actions Taken to Improve Internal Control Over Fixed
            Assets, August 20, 2003

       P	   Review of the RRB’s PIN/Password System for On-Line Authentication,
            September 8, 2003

       P	   Review of the Systems Development Life Cycle for End-User Computing,
            September 8, 2003

       P	   Fiscal Year 2003 Evaluation of Information Security at the Railroad Retirement
            Board, September 15, 2003

       P	   Evaluation of the Sufficiency of Existing Data to Estimate the Impact of
            Improper Payments on the Railroad Retirement Act Benefit Program,
            September 17, 2003




                                            34
                                               Semiannual Report to the Congress



A P P E N D I X B



OIG REPORTS WITH RECOMMENDATIONS THAT
QUESTIONED COSTS

   No activity during this reporting period.




OIG REPORTS WITH RECOMMENDATIONS FOR BETTER
USE OF FUNDS

   No activity during this reporting period.




                                         35
April 1, 2003 - September 30, 2003



A P P E N D I X C
                C


REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES
       The FY 1999 appropriations language for this office requires the reporting of
       additional information concerning actual collections, offsets and funds put to better
       use achieved as a result of Inspector General activities.
       Office of Audit

                  Funds to be put     Funds Agreed         Receivables                  Recoveries
         Report     to better use     by Management        Established      Waivers       to date


         99-03    $          50,850   $         50,850     $     50,580    $   50,490   $       360

         99-14               83,000             83,000*          34,423                      30,584

         99-16           48,000,000         48,000,000

         99-17           11,000,000         11,000,000                                   1,604,535**

         00-16             235,000             235,000                                      253,846***

       * This figure includes monies owed to the agency and overpayments which must be refunded.
       ** This figure represents case corrections that resulted in receivables, annuitant payments,
          employer tax credits and liabilities.
       ***This figure represents returned payments credited to debtor accounts.

       Office of Investigations

       Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

       October 1, 1998 - March 31, 1999                   $ 344,465
       April 1, 1999 - September 30, 1999                 $ 511,190
       October 1, 1999 - March 31, 2000                   $ 495,402
       April 1, 2000 - September 30, 2000                 $ 542,732
       October 1, 2000 - March 31, 2001                   $ 457,015
       April 1, 2001 - September 30, 2001                 $ 533,341
       October 1, 2001 - March 31, 2002                   $ 403,384
       April 1, 2002 - September 30, 2002                 $ 382,459
       October 1, 2002 - March 31, 2003                   $ 533,346
       April 1, 2003 - September 30, 2003                 $ 414,530




                                                   36
                                                                   Semiannual Report to the Congress



A P P E N D I X D
                D


RRB MANAGEMENT REPORTS*

             MANAGEMENT REPORT ON FINAL ACTION

            ON AUDITS WITH DISALLOWED COSTS FOR

        THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2003


                                                                                   Disallowed
                                                            Number                   Costs

 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                      0                        0

 B. Audit reports on which management decisions
 were made during the period.                                  0                        0

 C. Total audit reports pending final action during
 the period.                                                   0                        0

 D. Audit reports on which final action was taken
 during the period.

 1. Recoveries

    (a) Collections                                            0                        0
    (b) Property                                               0                        0
    (c) Other                                                  0                        0


 2. Write-offs                                                 0                        0


 3. Total of 1 and 2                                           0                        0


 E. Audit reports needing final action at the                  0                        0
 end of the period.


* The information contained in this section has been provided by RRB management.




                                                      37
April 1, 2003 - September 30, 2003



     MANAGEMENT REPORT ON FINAL ACTION ON AUDITS

   WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE

   FOR THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2003


                                                                                      Funds to be put
                                                              Number                   to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the end
                                                                  3                    $ 59,136,196 *

 B. Audit reports on which management decisions
 were made during the period.                                     0                          0

 C. Total audit reports pending final action during
 the period.                                                      3                    $ 59,136,196

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                         1                     $ 10,606,200

 2. Value of recommendations that management
 concluded should not or could not be
 implemented.                                                     0                           0

 3. Total of 1 and 2.                                             1                    $ 10,606,200

 E. Audit reports needing final action at the end of
 the period.                                                      2                    $ 48,529,996

* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange: Status of
Prior Recommendations for Change;” $10,606,200 from Audit Report 99-17, “Review of Supplemental
Annuities;” and $529,996 from Audit Report 01-11, “Review of the Quality of the Debt Recognition and
Collection Process for Railroad Retirement Act Overpayments.”




                                                       38
                                                                   Semiannual Report to the Congress



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

               AS OF SEPTEMBER 30, 2003

                                                      Funds to
                                    Disallowed        be put to           Reason action has not
         Report             Date      Costs           better use             been completed

Review of Quality        1/22/97      None               None	      The remaining recommendation will
Assurance Activities                                                be addressed as the agency
(97-06)                                                             develops a long-term quality
                                                                    assurance plan.

Review of Non-Priority   3/13/97      None               None	      The remaining recommendation will
Correspondence                                                      be addressed following conversion
Handling (97-09)                                                    to new imaging software in fiscal
                                                                    year 2004.

Review of Duplicate      7/31/97      None               None	      Programming changes to suppress
Postings of Railroad                                                duplicate earnings referrals should
Compensation (97-19)                                                be completed in fiscal year 2004 to
                                                                    close the remaining open
                                                                    recommendation.

Vested Dual Benefits     6/16/98      None               None	      The agency will review the feasibility
Appropriations (98-15)                                              of benefit component accounting as
                                                                    part of its strategic planning for
                                                                    information technology and
                                                                    enterprise architecture.

Review of Computer       2/12/99      None               None	      The Bureau of Information Services
Problem and Change                                                  has developed a service level
Management Process                                                  agreement to monitor internal
(99-05)                                                             customer satisfaction.

Review of Railroad        9/21/99     None               None	      The agency is completing
Unemployment Insurance                                              programming changes needed to
Act Contributions (99-14)                                           automate the reconciliation process
                                                                    for unemployment insurance reports
                                                                    and payments.




                                                 39
April 1, 2003 - September 30, 2003



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

               AS OF SEPTEMBER 30, 2003

                                                  Funds to
                                     Disallowed   be put to             Reason action has not
        Report            Date         Costs      better use               been completed

Financial Interchange:   9/28/99       None        $48,000,000	   The agency is awaiting a decision by
Status of Prior                                                   the Social Security Administration on
Recommendations for                                               the method for reflecting
Change (99-16)                                                    unrecovered overpayments in
                                                                  Financial Interchange calculations.

Information Systems      6/28/00       None            None	      The agency has implemented nine
Security (INFOSEC)                                                recommendations, and is working to
Assessment Report                                                 close out the remaining six.

Review of Information    9/06/00       None            None	      A post-implementation review of
Technology Contracts                                              upgrades to the agency’s wide-area
(00-15)                                                           network will close the remaining
                                                                  recommendation.



Review of Document       11/17/00      None            None	      The agency hopes to close the
Imaging - Railroad                                                remaining recommendation in fiscal
Unemployment                                                      year 2004 as backup capabilities are
Insurance Act Programs                                            enhanced for all local area network
(01-01)                                                           servers.

Audit of the RRB’s       2/23/01       None            None	      The Bureau of Information Services
FY 2000 Financial                                                 will address the remaining
Statements (01-03)                                                recommendation on problem reports
                                                                  pending availability of funds.

Timeliness of Desk       6/28/01       None            None	      The Bureau of Human Resources is
Audit and Vacancy                                                 developing a database system for
Announcement                                                      tracking performance.
Processing by the
Bureau of Human
Resources (01-08)




                                                  40
                                                                       Semiannual Report to the Congress



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

               AS OF SEPTEMBER 30, 2003

                                                         Funds to
                                       Disallowed        be put to            Reason action has not
         Report               Date       Costs           better use             been completed

Site Security Assessment     7/20/01     None               None	       The Bureau of Information Services
for the RRB                                                             has closed out nine
                                                                        recommendations, and is in the
                                                                        process of addressing the three
                                                                        remaining ones.

Review of the RRB’s          8/07/01     None               None	       Final action on the remaining open
Contract with                                                           recommendation requires
Comprehensive Health                                                    completion of requested
Service, Inc. For                                                       programming changes.
Disability Examinations
and Services (01-10)

Review of the Quality of     8/09/01     None             $ 529,996	    The agency hopes to implement
the Debt Recognition and                                                added quality control measures in
Collection for RRA                                                      fiscal year 2004 to address the
Overpayments (01-11)                                                    report’s last open recommendation.

Security Controls            8/17/01     None               None	       The Bureau of Information Services
Analysis for the Office of                                              closed 31 recommendations and is
Inspector General                                                       currently addressing the remaining
                                                                        7.

Review of Information        2/05/02     None               None	       The Bureau of Information Services
Security at the Railroad                                                has closed 12 recommendations and
Retirement Board                                                        is currently addressing the remaining
(02-04)                                                                 16.

Valuation of RRA             8/19/02     None               None	       The financial statements for fiscal
Accounts Receivable                                                     year 2003 will reflect an adjustment
(02-10)                                                                 for prematurely recorded
                                                                        receivables.

FY 2002 Evaluation of        8/27/02     None               None	       This recommendation will stay open
Information Security at                                                 until all activities related to
the RRB (02-12)                                                         documenting the disaster recovery
                                                                        contract have been performed once
                                                                        and reviewed by the Office of
                                                                        Inspector General.




                                                    41
April 1, 2003 - September 30, 2003



A P P E N D I X E
REPORTING REQUIREMENTS

Inspector General Requirements                                                                   Page

    Section 4(a)(2) - Review of Legislation and Regulations                                         33
    Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 5
    Section 5(a)(2) - Recommendations With Respect to Significant Problems,
      Abuses, and Deficiencies                                                                       5
    Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                          5
    Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   20
    Section 5(a)(5) - Instances Where Information Was Refused                                    None
    Section 5(a)(6) - List of Audit Reports                                                         34
    Section 5(a)(7) - Summary of Each Significant Report                                             5
    Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                35
    Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use                                               35
    Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
      For Which No Management Decision Has Been Made                                             None
    Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision                                                                None
    Section 5(a)(12) - Information on Any Significant Management Decisions
      With Which the Inspector General Disagrees                                                 None


Management Requirements


    Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
    Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         37
    Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  38
    Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          39




                                                42
              REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: 	RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
